FILED

NOT FOR PUBLICATION

MAR 10 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
JAMES R. HEFFLIN; PATTI A. HEFFLIN,
Petitioners-Appellants,

No.

18-72551

TaxCt.No. 7164-17L

v.
MEMORANDUM*
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
Appeal from a Decision of the
United States Tax Court
Submitted March 3, 2020**
Before:

MURGUIA, CHRISTEN, and BADE, Circuit Judges.

James R. Hefflin and Patti A. Hefflin appeal pro se from the Tax Court’s
summary judgment for the Commissioner of Internal Revenue in the Hefflins’
petition seeking review of the Internal Revenue Service Appeals Office’s
determination upholding the filing of a notice of federal tax lien. We have

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel Unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
/;

ft

jurisdiction under 26 U.S.C. § 7482(a)(1). We review de novo. Miller v. Comm V,
310 F.3d 640,642 (9th Cir. 2002). We affirm.
The Tax Court properly granted summary judgment for the Commissioner
because petitioners failed to raise a genuine dispute of material fact as to whether
the IRS Appeals Office abused its discretion in determining that the notice of
federal tax lien was not erroneously filed. See 26 C.F.R. § 301.6159—1 (f)(3)(i)(B)
(actions the IRS may take with regard to liability identified in an installment
agreement includes filing a notice of federal tax lien); Fargo v. Comm >, 447 F.3d
706, 709 (9th Cir. 2006) (discussing standard of review).
We reject as unsupported by the record the Helflins’ contentions regarding
retaliation and violation of their due process rights.
We do not consider the Hefflins’ contentions regarding the existence or
amount of the underlying tax liability. See Comm ’r v. McCoy, 484 U.S. 3, 6
(1987) (court of appeals lacks jurisdiction to decide an issue not before the Tax
Court or to grant relief beyond the powers of the Tax Court); see also 26 U.S.C.
§ 6330(c)(2)(B) (taxpayer may challenge existence or amount of underlying tax

2

18-72551

liability only if taxpayer did not otherwise have an opportunity to dispute such
liability), § 6330(c)(4) (taxpayer may not raise issues at a collection due process
hearing already considered at a prior hearing).
AFFIRMED.

3

18-72551

SD

UNITED STATES TAX COURT
WASHINGTON, DC 20217

JAMES R. HEFFLIN & PATTI A. HEFFLIN,

)
)

Petitioner(s),

)
)

v.

) Docket No. 7164-17 L.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)

ORDER AND DECISION
A hearing was held in this case at the Court’s February 26, 2018, San Diego,
California, trial session on respondent’s First Amended Motion for Summary
Judgment and petitioners’ Motion for Judgment on the Pleadings, as supplemented.
During the hearing, petitioners filed a Statement Under Rule 50(c).1 On May 11,
2018, respondent filed a response to petitioners’ Rule 50(c) statement, and
petitioners filed an objection to respondent’s response.
On December 20, 2017, respondent filed a Motion for Summary Judgment
pursuant to Rule 121, which was later sealed. On January 10, 2018, respondent
filed a First Amended Motion for Summary Judgment. The Court ordered
petitioners to file, on or before January 26, 2018, a response to respondent’s First
Amended Motion for Summary Judgment. On January 26, 2018, petitioners filed a
Reply to First Amended Motion for Summary Judgment. On February 19, 2018,
petitioners filed a Motion for Judgment on the Pleadings, and on February 22,
2018, petitioners filed a First and Second Supplement to Motion for Judgment on
the Pleadings.
The Court is satisfied that the material facts are not in dispute, and for the
reasons summarized below, respondent’s first amended motion for summary
'Unless otherwise indicated, all section references are to the Internal Revenue Code of
1986 (Code) as amended and in effect at the relevant times, and all Rule references are to the
Tax Court Rules of Practice and Procedure.

SERVED Jun 15 2018

-2-

judgment should be granted. Petitioners resided in California when they petitioned
this Court on March 30, 2017.
This case arises under section 6320 because the Internal Revenue Service
(IRS) Appeals Office has sustained a Notice of Federal Tax Lien (NFTL) with
respect to petitioners’ outstanding income tax liabilities for tax years 2010-2014
(years at issue). In their petition, petitioners claimed that they were not delinquent
in their tax liabilities for the years at issue because they previously had entered into
an installment agreement with respondent, and the filing of the NFTL was thus
erroneous. They also stated that the amount owed was incorrect because the
agreement with respondent included an abatement of interest and penalties.
Background
On March 30, 2017, petitioners filed a timely petition in this case after the
IRS Appeals Office issued a Letter 3193, Notice of Determination Concerning
Collection Action(s) Under Section 6320 and/or 6330 of the Internal Revenue
Code, on February 28, 2017, sustaining a NFTL for tax years 2010-2014.
Petitioners’ tax liabilities arise from their failure to pay self-assessed taxes due to
insufficient withholdings and/or estimated tax payments and from penalties
imposed by respondent for: (1) failure to timely file for tax years 2010-2012; (2)
failure to pay tax for tax years 2010-2014; (3) failure to pay estimated tax for tax
years 2011 -2013; and interest assessed for tax years 2010-2014.
On October 25, 2016, respondent filed a NFTL for the years at issue in
Riverside County, California. On November 3, 2016, respondent sent petitioners a
Letter 9172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under
IRC 6320, informing petitioners of the filing of the NFTL and their right to a
collection due process (CDP) hearing under section 6320. On November 9, 2016,
petitioners sent respondent a Form 12153, Request for a Collection Due Process
Hearing. On the Form 12153, petitioners indicated that they believed the NFTL
should be removed because petitioners and respondent had entered into an
installment agreement as a result of a prior CDP hearing.
On November 22, 2016, petitioners sent respondent additional
correspondence, including a copy of a fax petitioners claimed to have sent to
respondent’s collection office in Cincinnati and a second Form 12153 in which
they indicated that they would like to be considered for an installment agreement in
lieu of the collection action. The second Form 12153 again disputed the NFTL and
claimed that respondent had breached an existing installment agreement with

-3-

petitioners. Petitioners also stated on this form that the penalties and interest
amounts should have been abated under the same agreement. Petitioners also
submitted a number of other documents including: (1) solicitation letters sent from
attorneys to petitioners regarding the NFTL; (2) a letter sent by Palm Desert Tax to
United States Treasury on behalf of petitioners regarding overpayments from tax
year 2015 being applied to petitioners’ liabilities from earlier years; (3) several
notices of intent to terminate an installment agreement for nonpayment, each dated
August 8, 2016, sent to petitioners by respondent; (4) an October 28, 2016, letter
sent by respondent to petitioners stating that overpayments from tax year 2015 had
been applied to their balance due and an installment agreement had been
implemented for $1,295.00 per month; and (5) copies of the NFTL and the first
Form 12153. These documents were provided to respondent’s Office of Appeals
for consideration during the CDP hearing.
On January 24, 2017, respondent’s Settlement Officer (SO) M. Banks sent
petitioners a letter acknowledging timely receipt of petitioners’ Form 12153 and
scheduling a teleconference for the CDP hearing for February 16, 2017. SO Banks
also requested that petitioners provide her with any additional documents that they
wanted her to consider by February 15, 2017. On February 15, 2017, SO Banks
received a letter from petitioners detailing petitioners’ disagreement with
respondent’s collection efforts. Included with the letter were a copy of Form
668(Y)(c), Notice of Federal Tax Lien; a copy of Form 12257, Summary Notice of
Determination, Waiver of Right to Judicial Review of a Collection Due Process
Determination, Waiver of Suspension of Levy Action, and Waiver of Periods of
Limitations in Section 6330(e)(1), from a prior levy hearing for the same tax
periods signed by petitioner husband on February 8, 2016; and a copy of Form
433-D, Installment Agreement. Although petitioners did not sign the Form 433-D,
both petitioners and respondent signed the Form 12257, which stated that the
parties were entering into the installment agreement as an alternative to a levy for
the years at issue with payments of $1,295.00 due monthly beginning on April 15,
2016. The Form 12257 did not contain an agreement to abate interest or additions
to tax or any representation by respondent that they would refrain from filing or
remove any notice of tax lien.
On February 16, 2017, SO Banks and petitioner husband conducted the
scheduled CDP hearing by phone. SO Banks explained that petitioners could not
challenge the penalties because they had the opportunity to do so during their prior
CDP hearing. When SO Banks told petitioner husband that the IRS followed the
applicable law and proper procedures when filing the NFTL, petitioner husband
stated that his agreement with the IRS was that a NFTL would not be filed unless

-4-

petitioners defaulted on the installment agreement. SO Banks told petitioner
husband that the Form 12257 did not contain those terms and that the installment
agreement did not meet the criteria under which the IRS would agree not to file a
NFTL. SO Banks stated that petitioners were likely also in default of the
installment agreement as no payments had ever been made. Petitioner husband
stated that petitioners did not make any payments because they were appealing the
NFTL and did not agree with the amount owed. In their petition and other
mailings to respondent, petitioners claimed that the NFTL had ruined their credit
and prevented them from paying for their son’s college education, but they did not
provide SO Banks with any documentation of economic hardship.
On February 28, 2017, respondent issued a notice of determination to
petitioners sustaining the NFTL. On March 30, 2017, petitioners filed a timely
petition with this Court challenging the notice of determination. In their petition,
petitioners stated that the amount owed was incorrect, that they believed penalties
and interest should have been abated, and that the NFTL filing was “abusive”
because they had an installment agreement in place prior to the filing.
Discussion
Respondent’s motion requests summary judgment in his favor under Rule
121. Summary adjudication is designed to expedite litigation and avoid
unnecessary and expensive trials. Fla. Peach Corp. v. Commissioner, 90 T.C. 678,
681 (1988). Under Rule 121(b), summary judgment may be granted with respect
to all or any part of the legal issues presented “if the pleadings, answers to
interrogatories, depositions, admissions, and any other acceptable materials,
together with the affidavits or declarations, if any, show that there is no genuine
dispute as to any material fact and that a decision may be rendered as a matter of
law.” See Sundstrand Corp. v. Commissioner, 98 T.C. 518, 520 (1992), affd, 17
F.3d 965 (7th Cir. 1994).
The moving party bears the burden of proving that there is no genuine issue
of material fact, and factual inferences will be drawn in a manner most favorable to
the party opposing summary adjudication. Dahlstrom v. Commissioner. 85 T.C.
812, 821 (1985). Although facts are viewed in the light most favorable to the
nonmoving party, Naftel v. Commissioner, 85 T.C. 527, 529 (1985), the
nonmoving party may not rest upon allegations and denials in that party’s
pleadings. The nonmoving party must set forth specific facts showing that there is
a genuine dispute as to any material fact. Rule 121(d); Dahlstrom v.
Commissioner, 85 T.C. at 820-821.

-5-

Section 6320 entitles a taxpayer, upon timely request, to an administrative
hearing before the filing of a tax lien by respondent. Sec. 6320(b). The taxpayer
may raise any relevant issues relating to the proposed collection action, including
the appropriateness of the collection action and proposed collection alternatives,
such as an installment agreement or offer-in-compromise. See Sec. 6320(c); Sec.
6330(c)(2)(A)(ii) and (iii). Petitioners cannot dispute the existence or amount of
any underlying tax liability during the CDP hearing if petitioners received a
statutory notice of deficiency or otherwise had an opportunity to dispute the tax
liability. Sec. 6330(c)(2)(B). During the hearing, the Appeals Office must verify
“that the requirements of any applicable law or administrative procedure have been
met.” Sec. 6330(c)(1). The Appeals Office must then consider the issues raised
and balance the need for efficient collection activities “with the legitimate concern
of the person that any collection action be no more intrusive than necessary” in
making its determination. Sec. 6330(c)(3).
This Court has jurisdiction to review the determination of the Appeals Office
upon the issuance of a valid notice of determination and the timely filing of a
petition. Goza v. Commissioner, 114T.C. 176, 181-182(2000). The Court
reviews all determinations, other than a properly disputed underlying tax liability,
for an abuse of discretion. Id. at 182; see also Sego v. Commissioner, 114 T.C.
604, 609-610 (2000). An abuse of discretion occurs when the determination of the
Appeals Office is arbitrary, capricious, or without sound basis in fact or law.
Murphy v. Commissioner, 125 T.C. 301, 320 (2005), aff d, 469 F.3d 27 (1st Cir.
2006). In deciding whether a decision is arbitrary, capricious, or without sound
basis in fact or law, the Court does not substitute its judgment for that of the
Appeals Office; rather it decides whether the requirements of section 6320 have
been met, including whether relevant issues were considered. See, e.g„ id.;
Woodral v. Commissioner, 112 T.C. 19,23 (1999).
Respondent may withdraw a NFTL under certain circumstances, such as
where the NFTL was improperly filed or where an installment agreement is in
place under section 6159. Sec. 6323(j). However, it may be proper for respondent
to file an NFTL even when an installment agreement is in place. See Karakaedos
v. Commissioner, T.C. Memo. 2012-53; Crisan v. Commissioner, T.C. Memo.
2007-67. Unless the installment agreement provides otherwise, respondent may
take action to protect the interests of the Government with respect to the tax
liability, including the filing of a NFTL. Sec. 301.6159-l(f)(3)(i)(B), Income Tax
Regs. It is not an abuse of discretion for a settlement officer to refuse to withdraw
a NFTL where petitioners have made an “unsupported contention” that they will

-6-

face economic hardship but failed to provide any documentation to support this
claim. Kvereme v. Commissioner, T.C. Memo. 2012-174 slip. op. at 16-17.
Section 6330(c)(2)(A)(iii) authorizes taxpayers to raise collection
alternatives during a CDP hearing. Taxpayers must provide financial information
in order to be considered for collection alternatives, and the Appeals Office “does
not abuse its discretion when it rejects a collection alternative because a taxpayer
does not provide all the necessary financial information during the CDP hearing
process.” Cunningham v. Commissioner, T.C. Memo. 2014-200 at *18 (citing
Olsen v. United States, 414 F.3d 144, 151-154 (1st Cir. 2005); McLaine v.
Commissioner, 138 T.C. 228, 243 (2012).
Because petitioners had the opportunity to dispute the underlying tax
liabilities during the prior CDP hearing regarding the NFTL with respect to the
same tax years, they are precluded from doing so in the present case and we review
for abuse of discretion. Reading all factual inferences in favor of petitioners, the
record establishes that SO Banks did not abuse her discretion.
Petitioners allege that the NFTL was filed erroneously because an
installment agreement was already in place with respect to the years at issue. They
also claim that the installment agreement included an agreement to abate interest
and penalties and an agreement by respondent not to file a NFTL. However, the
installment agreement contains no terms restricting respondent’s ability to file a
NFTL in order to protect the Government’s interest and no terms regarding the
abatement of interest and penalties.
Further, as of the date of the CDP hearing, petitioners had not made any
payments under the installment agreement and thus were not in compliance with its
terms. The terms of the installment agreement were clearly outlined in the Form
12257 issued after the prior hearing. The Form 12257 was signed by petitioners.
Although petitioners claimed that the NFTL caused them economic hardship, they
provided no documentation of such hardship during the hearing and are thus not
entitled to consideration of additional collection alternatives. We find that SO
Banks did not abuse her discretion in upholding the NFTL filing in the notice of
determination.
Because the material facts are not in dispute and respondent is entitled to a
decision as a matter of law, it is hereby,

-7-

ORDERED that respondent’s First Amended Motion for Summary
Judgment, filed January 10, 2018, is granted. It is further
ORDERED that petitioner’s Motion for Judgment on the Pleadings, filed
February 19, 2018, and as supplemented, February 22, 2018, is denied as moot. It
is further
ORDERED AND DECIDED that respondent’s determination set forth in the
Notice of Determination Concerning Collection Actions Under Section 6320
and/or 6330 issued to petitioners on February 28, 2017, for petitioners’ income tax
liabilities for the tax years 2010-2014 is sustained in full.

(Signed) L. Paige Marvel
Judge

ENTERED:

JUN 15 2018

